January 20, 2011

MICHAEL S. FUREY
DISTRICT MANAGER, NORTHERN VIRGINIA DISTRICT

SUBJECT:          Audit Report – City Delivery Efficiency Review – Northern Virginia District
                  (Report Number DR-AR-11-003)

This report presents the results of our audit of City Delivery Efficiency Review – Northern
Virginia District1 (Project Number 10XG051DR000). Our objectives were to assess overall
efficiency of city delivery operations and identify opportunities to reduce operating costs
within the Northern Virginia District. This self-initiated audit addresses operational risk and
is the sixth in a series conducted by the U.S. Postal Service Office of Inspector General
(OIG). See Appendix A for additional information about this audit.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. The Postal Service must achieve unprecedented levels of efficiency to accommodate
this new growth while facing financial losses from declining mail volumes and rising costs.

Conclusion

The Northern Virginia District was not operating at peak efficiency and could reduce city
delivery operating costs. Our benchmarking comparison determined the Northern Virginia
District used approximately 16 minutes more per day than the national average for each
carrier route, compared to the standard for that route. This equated to more than 103,000
workhours annually. The measurement for this factor, called percent to standard,2 was
123.24 – about 17 percentage points above the national average of 105.95 percent.

Operation Efficiency

Although numerous factors were involved, our review of 20 randomly selected delivery
units confirmed these inefficiencies and determined Northern Virginia District management
did not always (1) provide sufficient review and oversight of unit offices’ operating
efficiencies and (2) coordinate with the mail processing facility to ensure mail was timely
1
  The Northern Virginia District is one of seven districts in the Capital Metro Area. It consists of 56 delivery units that
deliver mail on 2,536 city routes with more than 669,002 delivery points.
2
  The percent to standard measurement is a measure of carrier office workhour performance in relation to mail volume
and delivery points. A figure of 100 percent indicates that office performance is at the stated performance goal. A figure
greater than 100 percent indicates performance is less than the desired standard.
City Delivery Efficiency Review –                                                                        DR-AR-11-003
 Northern Virginia District

received and in a condition that promoted operating efficiency. Eliminating time-wasting
practices and increasing focus on efficiency could allow management to reduce workhours.
Some examples include ensuring that:

        Management provides sufficient oversight of morning and afternoon office
         operations.

        Vehicle inspection process is efficient.

        Carriers are timely and correctly clocking into afternoon (p.m.) office time.

        Units receive the proper mix from the processing facility per the integrated operating
         plan (IOP).3

        Carriers spend less time waiting for mail.

        Clerks and carriers do not unnecessarily re-handle unshelved mail transport
         containers to identify and retrieve delivery point sequence4 (DPS) mail.

See Appendix B for additional information about these issues.

Consequently, the Northern Virginia District used more workhours than necessary to deliver
the mail. Adjusting its operations would increase the Northern Virginia District’s overall
efficiency by reducing 103,160 workhours, resulting in savings of more than $3.2 million
annually or about $32 million over 10 years. See Appendix C for additional information
about this issue.

We recommend the district manager, Northern Virginia District:

1. Reduce the Northern Virginia District’s workhours by 103,160 to achieve an associated
   economic impact of about $32 million over 10 years.

2. Require processing facility managers and delivery managers to coordinate, review, and
   update all integrated operating plans to ensure mail arrives timely and in the condition
   necessary to promote office efficiency.




3
  A contract that covers mail arrival from the plant and identifies the product of mail agreed for each individual trip. The
primary purpose is to stabilize mail flow (for example, arrival time of DPS, auto letters, and auto flats) based on other
requirements for mail arrival such as the mail mix/unit distribution percentage.
4
  A process for sorting bar-coded letter mail at the processing plants and delivery units into the carrier’s line-of-travel. Mail
is taken directly to the street, with no casing time in the office.




                                                                2
City Delivery Efficiency Review –                                            DR-AR-11-003
 Northern Virginia District

Management’s Comments

Management agreed with the findings, recommendations, and opportunities to capture
monetary impact.

In response to recommendation one, management agreed to reduce city carrier office
hours. Management’s action plan includes reducing carrier inefficiencies in the office by
implementing and monitoring standard operating procedures (SOPs); increasing
operational audits for compliance with established best practices; providing additional
training for supervisors on managing office time; flexing carrier start times for tours; and
improving on-time mail arrival profiles. Management plans to implement action by February
2011.

Management responded to our second recommendation stating they agreed to improve on
time arrivals from mail processing to delivery units. Management also stated that while
officials were not adhering to IOPs, the IOPs were current at the time of the audit. However,
as a part of their action plan, they will adjust transportation schedules as well as review and
update IOPs as a part of the process. Further, management’s action plan includes
improving inbound mail flows, implementing sort change plans, staggering transport
schedules, and improving machine throughput. Management plans to implement action by
February 5, 2011. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 1 significant and therefore requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective action
is completed. This recommendation should not be closed in the Postal Service’s follow-up
tracking system until the OIG provides written confirmation that the recommendation can be
closed.




                                               3
City Delivery Efficiency Review –                                            DR-AR-11-003
 Northern Virginia District


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery, or
me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Megan J. Brennan
    Dean J. Granholm
    Elizabeth A. Schaefer
    Phillip F. Knoll
    Timothy C. Haney
    Jeffery W. Lewis
    Edward A. Brinckman
    Corporate Audit and Response Management




                                               4
City Delivery Efficiency Review –                                                DR-AR-11-003
 Northern Virginia District

                                 APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Delivery operations are the Postal Service’s largest operational function, accounting for
approximately 45 percent of salary expenses and workhours. Despite an annual increase of
approximately 1 million delivery points, delivery operations used 36.5 million fewer
workhours in fiscal year (FY) 2009, because of effective growth management, increased
use of automation, standardization of best practices, and improved productivity. Although
delivery operations used fewer workhours, workhour reduction has not kept pace with
declining mail volume. Nationally, city delivery mail volume declined by 3.9 percent in
FY 2010. During this same period, mail volume declined in the Capital Metro Area by
2.4 percent, while workhours declined by 2.8 percent. The Northern Virginia District mail
volume declined by 2.7 percent in FY 2010, while workhours declined by 3.2 percent.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the overall efficiency of city delivery operations and identify
opportunities to reduce operating costs within the Northern Virginia District. To accomplish
our objectives, we:

          Ranked the eight areas from highest to lowest in terms of percent to standard from
           July 1, 2009, through June 30, 2010. We used the national percent to standard of
           105.95 percent for July 1, 2009, through June 30, 2010, as a baseline guide.

          Selected the Capital Metro Area and, within that area, judgmentally selected the
           Northern Virginia District for review because of its high percent to standard
           measurement of 123.24 percent.

          Randomly selected 20 of the 56 delivery units within the Northern Virginia District for
           review.

    At the selected delivery units, we:

          Obtained, reviewed, and analyzed delivery unit data related to office operations.

          Conducted interviews on-site and obtained information on carrier operations, unit
           operations, processes, and procedures.

          Conducted physical observations of office delivery operations.

          Reviewed documentation and applicable policies and procedures for city delivery
           and Postal Service Handbooks M-395 and M-41.6
5
    Management of Delivery Services, March 1998.
6
    City Delivery Carriers Duties and Responsibilities, March 1998.




                                                              5
City Delivery Efficiency Review –                                                               DR-AR-11-003
 Northern Virginia District



We conducted this performance audit from August 2010 through January 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on December 10, 2010, and included their comments
where appropriate.

We relied on data obtained from Postal Service database systems, primarily from eFlash.7
We did not directly audit the systems but performed limited data integrity review to support
our data reliance. We assessed the reliability of delivery point’s data by reviewing existing
information about the data and the system that produced them, as well as interviewing
agency officials knowledgeable about the data. We determined that the data were
sufficiently reliable for the purposes of this report.




7
  A weekly operating report management system that combines data from delivery, mail processing, employee relations,
labor relations, and finance. The information is extracted from various host systems and loaded into eFlash.




                                                          6
       City Delivery Efficiency Review –                                                DR-AR-11-003
        Northern Virginia District



       PRIOR AUDIT COVERAGE

       The OIG identified four audits related to our objective that were issued over the past 3
       years:

                                              Final          Monetary
   Report Title        Report Number       Report Date        Impact                 Report Results
City Delivery          DR-AR-10-009        9/24/2010     $27,374,309    The Atlanta District was not operating at
Efficiency Review                                                       peak efficiency and could reduce city
– Atlanta District                                                      delivery operating costs. Although
                                                                        numerous factors were involved, our
                                                                        review of 22 randomly selected delivery
                                                                        units determined that district
                                                                        management did not always (1) provide
                                                                        sufficient review and oversight of unit
                                                                        offices’ operating efficiencies and
                                                                        (2) coordinate with mail processing
                                                                        facilities to ensure mail was timely
                                                                        received and in a condition that
                                                                        promoted office operating efficiency.
                                                                        Elimination of time-wasting practices
                                                                        and an increased focus on efficiency
                                                                        could allow management to reduce
                                                                        workhours. Management agreed with
                                                                        findings, recommendations, and
                                                                        monetary impact.
City Delivery          DR-AR-10-007        8/26/2010     $79,016,988    The Bay Valley District was not
Efficiency Review                                                       operating at peak efficiency and could
– Bay Valley                                                            save workhours and reduce city delivery
District                                                                operating costs. Although numerous
                                                                        factors were involved, our review of
                                                                        22 randomly selected delivery units
                                                                        determined that district management
                                                                        did not always (1) provide sufficient
                                                                        review and oversight of unit offices’
                                                                        operating efficiencies and (2) coordinate
                                                                        with mail processing facilities to ensure
                                                                        mail was timely received and in a
                                                                        condition that promoted office operating
                                                                        efficiency. Eliminating time-wasting
                                                                        practices and an increasing focus on
                                                                        efficiency could allow management to
                                                                        reduce workhours. Management agreed
                                                                        with findings, recommendations, and
                                                                        monetary impact.




                                                         7
       City Delivery Efficiency Review –                                                DR-AR-11-003
        Northern Virginia District


                                              Final          Monetary
   Report Title        Report Number       Report Date        Impact                 Report Results
City Delivery          DR-AR-10-006         7/1/2010     $105,000,000   The Los Angeles District was not
Efficiency Review                                                       operating at peak efficiency and could
– Los Angeles                                                           save workhours and reduce city delivery
District                                                                operating costs. Although numerous
                                                                        factors were involved, our review of
                                                                        25 randomly selected delivery units
                                                                        confirmed these inefficiencies and
                                                                        determined district management did not
                                                                        (1) provide sufficient review and
                                                                        oversight of unit offices’ operating
                                                                        efficiencies and (2) coordinate with the
                                                                        mail processing facility to ensure mail
                                                                        was timely received and in a condition
                                                                        that promoted office operating
                                                                        efficiency. Eliminating time-wasting
                                                                        practices and increasing focus on
                                                                        efficiency could allow management to
                                                                        reduce workhours. Management agreed
                                                                        with findings, recommendations, and
                                                                        monetary impact.
City Delivery          DR-AR-10-002        12/18/2009     $21,308,433   The audit concluded the Napoleon
Efficiency Review                                                       Street Station was not operating at peak
– San Francisco                                                         efficiency, and management could
Napoleon Street                                                         reduce city delivery costs. Our
Station                                                                 benchmarking comparison of five
                                                                        similar delivery units showed this station
                                                                        used 54,975 more workhours than
                                                                        necessary. We also found management
                                                                        did not adjust workhours to the changes
                                                                        in workload. Management agreed with
                                                                        our findings and recommendations to
                                                                        correct the issues identified.




                                                         8
City Delivery Efficiency Review –                                                                   DR-AR-11-003
 Northern Virginia District

                                    APPENDIX B: DETAILED ANALYSIS

Operation Efficiency

The Northern Virginia District used 103,160 more workhours than necessary. Our
benchmarking comparison determined the Northern Virginia District’s percent to standard
measurement was 17 percentage points above the national average (123.24 percent
compared to the national average of 105.95 percent). In other words, the district used
approximately 16 minutes8 more per day on each carrier route than the average carrier
route in the nation. From July 1, 2009, through June 30, 2010, the Northern Virginia District
ranked seventh in terms of percent to standard within the Capital Metro Area (see Table 1.)

                 Table 1. Capital Metro Area Percent to Standard Comparison
                             July 1, 2009, through June 30, 2010

                                                                  Percent to
                                                                  Standard             Ranking
                    National Average                               105.95                N/A
                    Districts in Capital Metro Area
                    Mid-Carolinas                                    98.17                   1
                    Greensboro                                       100.10                  2
                    Greater South Carolina                           103.64                  3
                    Richmond                                         108.71                  4
                    Baltimore                                        113.94                  5
                    Capital                                          114.88                  6
                    Northern Virginia                                123.24                  7
                   Source: eFlash

This condition occurred, because management did not always (1) provide sufficient review
and oversight of unit offices’ operating efficiencies and (2) coordinate with the mail
processing facility to ensure mail was timely received and in the condition necessary to
promote office operating efficiency.

Managing Morning and Afternoon Office Operations

Supervisors did not provide sufficient oversight of morning operations. Specifically, the
vehicle inspection process was not always efficient. Our observations disclosed that
delivery units lost several minutes per day because of carriers searching for vehicles before
inspection. Five of the 20 delivery units lost time because parking spaces were unassigned.
In four other delivery units, carriers waited in line to get vehicle keys. Postal Service policy
states employees should park vehicles near the dock in assigned spaces identified by
individual route numbers. In addition, policy states employees should conduct vehicle
8
 6,189,600 minutes (103,160 hours above the national average percent to standard multiplied by 60 minutes per hour)
divided by 1,263 routes in the Northern Virginia District divided by 302 annual delivery days per year equals approximately
16 minutes per route per day.




                                                            9
City Delivery Efficiency Review –                                                                  DR-AR-11-003
 Northern Virginia District

inspections promptly after clocking in for the morning. The policy also requires vehicle keys
to be located adjacent to time-recording equipment (see Illustration 1).

            Illustration 1: Carriers Waiting to Obtain Keys for Vehicle Inspection




                            Source: OIG

In addition, supervisors did not always effectively manage afternoon office time at 11 of the
20 delivery units observed. Some carriers spent 10 minutes or more in the office after
returning from their routes. Postal Service policy allows a standard 5 minutes for carriers to
perform afternoon office duties. We also observed some carriers not clocking directly to
“office time” upon returning to the unit in the afternoon, resulting in much of this additional
office time” being included in street operations time.

During the audit, we informed district officials of our finding regarding the management of
morning and afternoon office operations. Northern Virginia District officials agreed with our
finding and took immediate corrective action. In November 2010, Northern Virginia District
officials issued two standard operating procedures reinforcing proper procedures for
inspecting city carrier vehicles and managing city carrier p.m. office time. According to
Northern Virginia District officials, delivery operations efficiency has improved since
implementing these SOPs. The corrective actions implemented during the audit should
resolve the issues identified; therefore, we are making no recommendation regarding this
issue.

Mail Arrival

For 179 of the 20 delivery units observed, mail arrived 45 minutes to 2 hours late from the
processing plant. This occurred because of plant delays and the mail arriving from the plant
not matching the agreed upon mail arrival times and mail mixtures as outlined in the IOP

9
 Of the 17 delivery units, 15 were Flat Sequenced System delivery units. In these units, carriers have a smaller window of
office time due to the limited number of flat mailpieces required to case.




                                                           10
City Delivery Efficiency Review –                                                           DR-AR-11-003
 Northern Virginia District

agreed to by the plant and delivery unit. The IOP is designed to help stabilize mail flows
and is critical in establishing appropriate staffing and reporting times to ensure carriers are
not delayed. Although the Northern Virginia District has daily meetings and uses the IOP
Discrepancy Reporting system and Customer Service Daily Reporting System to report
issues to the plant, mail flow issues often remain unresolved. In addition, according to
Northern Virginia District officials, the Merrifield Processing and Distribution Center
removed three delivery barcode sorter machines at the discretion of the Capital Metro Area
because of productivity concerns. Northern Virginia District officials stated the removal of
the machines, fall mailings, and other productivity issues impacted the late mail arrivals
(see Illustration 2).

                          Illustration 2: Carriers Waiting For Mail Arrival




                         Source: OIG

We found additional time was incurred in three of the 20 delivery units by some carriers
waiting to obtain accountable items such as certified or Registered Mail™. Postal Service
policy10 states that accountable items must be available for carriers in a timely manner so
as not to cause delays. Because carrier time should be minimized in the accountable
operations, use of mobile accountable cart operation11 is highly encouraged (see
Illustration 3).




10
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
Section 3 -1, 2007.
11
   Clerks use accountable carts to transport items from the accountable cage to carriers.




                                                       11
City Delivery Efficiency Review –                                                           DR-AR-11-003
 Northern Virginia District



                     Illustration 3: Carriers Waiting for Accountable Items




                       Source: OIG

Mail Condition

In five of the 20 delivery units observed, DPS letters processed by the plants arrived at
delivery units in mail transport containers that were not staged for easy retrieval by the
carriers. This required clerks and sometimes carriers to unload and sort through transport
containers, which delayed carriers unnecessarily. Postal Service policy12 states mail
processing should stage DPS letters for transport in shelved or modified containers so
individual trays do not have to be re-handled at the delivery unit (see Illustration 4).

                              Illustration 4: Carriers Re-handling DPS Mail




                           Source: OIG



12
  Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
2007, Section 2-6.




                                                       12
City Delivery Efficiency Review –                                            DR-AR-11-003
 Northern Virginia District

Adjusting its operations would increase the Northern Virginia District’s overall efficiency by
reducing approximately 103,160 workhours, resulting in savings of more than $3.2 million
annually or about $32 million over 10 years. See Appendix C.




                                              13
   City Delivery Efficiency Review –                                                                 DR-AR-11-003
    Northern Virginia District

                                       APPENDIX C: MONETARY IMPACT

                           Finding                     Impact Category                      Amount
                     Operating Efficiency           Funds Put to Better Use13             $32,171,718

   We estimated the monetary impact of $32,171,718 in funds put to better use by reducing
   103,160 workhours at delivery units in the Northern Virginia District. This amount included
   an estimated cost savings of $30,232,634 from reducing city letter carrier positions over
   10 years and $1,939,084 in reduction of delivery office overtime workhours over 2 years
   (see Table 2.)

                    Table 2. Northern Virginia District Station Workhour Savings
                                                                                            2-year
                                                                     10-Year             Projection of
                                                Estimated          Projection of         Savings from
                                               City Delivery       Savings from          Partial FTEs’
                    Delivery        Total       Workhours           full FTE’s             Overtime            Estimated
   District         Units14        Routes         Saved15           Reduction             Workhours           Total Savings
Northern
Virginia               56             2,536        103,160            $30,232,634            $1,939,084         $32,171,718
Source: OIG

       We calculated funds put to better use of full-time equivalents (FTEs) over 10 years
        using the FY 2011 city carrier level 2 fully loaded, labor rate with an escalation factor of
        1.7 percent.

       To determine the extent of the reduction of city carrier FTE positions, we used a cash
        flow analysis based on city carrier complement and attrition from the Web Enterprise
        Information System for FYs 2005 through 2010. We used this to determine how many
        city letter carriers are estimated to leave in future years.

       We used the discount rate of 3.875 percent based on the Postal Service’s Decision
        Analysis Report factors (cost of borrowing rate).

       We calculated funds put to better use for reducing city carrier workhours not equivalent
        to a FTE using the city carrier overtime rate for FY 2011 with an escalation factor of
        1.7 percent for the 2-year projection.




   13
      Funds that could be used more efficiently by implementing recommended actions.
   14
      We identified cost savings at 28 of 56 delivery units in the Northern Virginia District.
   15
      The amount of estimated workhours the Northern Virginia District can save if they improve their percent to standard
   from 123.24 down to the national average of 105.95. The reduction of these hours results in a projected FTE reduction of
   44 positions over 10 years and a reduction of 26,159.74 overtime hours over 2 years.




                                                              14
City Delivery Efficiency Review –                              DR-AR-11-003
 Northern Virginia District

                           APPENDIX D: MANAGEMENT’S COMMENTS




                                          15
City Delivery Efficiency Review –        DR-AR-11-003
 Northern Virginia District




                                    16
City Delivery Efficiency Review –        DR-AR-11-003
 Northern Virginia District




                                    17
